No. _________
IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL LANCE DAVIS,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit Court
PROOF OF SERVICE OF
PETITION FOR WRIT OF CERTIORARI

MELISSA WINBERG*
MILES POPE
FEDERAL DEFENDER SERVICES OF IDAHO, INC.
702 West Idaho Street, Suite 1000
Boise, Idaho 83702
Miles_Pope@fd.org
208-331-5500
*Counsel

of Record

Attorney Miles Pope, pursuant to Supreme Court Rule 29, certifies
that the within Petition For Writ Of Certiorari To The Court Of Appeals
For The Ninth Circuit was served on counsel for the Respondent by
enclosing a copy thereof in an envelope, postage prepaid, addressed to:
Noel Francisco, Solicitor General of the United States
Office of Solicitor General
Room 5616
U.S. Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and depositing same with the United Parcel Service in Boise, Idaho, this
30th day of June, 2020, and further certifies that all parties required to
be served have been served.
Dated this 30th day of June, 2020.
Respectfully submitted,
/s/ Miles Pope
Miles Pope

